No. 19In the

Supreme Court of the United States
KOHLBERG VENTURES, LLC,
Petitioner,
v.
PETER WOJCIECHOWSKI, on behalf of
himself and purported on behalf of
all others similarly situated
(putative class not certified),
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI
George J. Tichy, II
Michael F. McCabe
Littler Mendelson, P.C.
333 Bush Street, 34th Floor
San Francisco, California 94104
(415) 433-1940

Daniel L. Thieme
Counsel of Record
Littler Mendelson, P.C.
600 University Street,
Suite 3200
Seattle, WA 98101
(206) 623-3300
dthieme@littler.com

Attorneys for Petitioner
Kohlberg Ventures, LLC
291169

A
(800) 274-3321 • (800) 359-6859

i
Question presented
Under federal rules of res judicata, when a lawsuit is
dismissed with prejudice by agreement, should a term of
the agreement that purports to allow the plaintiff to file
a subsequent lawsuit against non-parties be sufficient,
standing alone and without express court authorization,
to permit the plaintiff to bring the same settled and
dismissed claim in a separate lawsuit against new
defendants based on the liability theory that all defendants
had acted as a “single employer,” or otherwise acted as a
“single enterprise”?

ii
CORPORATE DISCLOSURE STATEMENT
Petitioner Kohlberg Ventures, LLC, has no parent
corporation, and no publicly held corporation owns 10%
or more of its membership interests.

iii
RELATED PROCEEDINGS
Wojciechowski v. ClearEdge Power, Inc. and
ClearEdge Power, LLC, Adv. No. 14-4152, U.S. Bankruptcy
Court for the Northern District of California. Final order
approving settlement entered April 5, 2016.
Wojciechowski v. Kohlberg Ventures, LLC, No. 16cv-06775, U.S. District Court for the Northern District
of California. Order granting motion to dismiss entered
April 11, 2017.
Wojciechowski v. Kohlberg Ventures, LLC, No.
17-15966, U.S. Court of Appeals for the Ninth Circuit.
Opinion reversing dismissal entered May 8, 2019.

iv
TABLE OF CONTENTS
Page
Question presented . . . . . . . . . . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE STATEMENT . . . . . . . ii
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
Petition for writ of certiorari . . . . . . . . . 1
Opinions BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Statute and regulation INVOLVED  . . . . . . 2
STATEMENT OF THE CASE  . . . . . . . . . . . . . . . . . . . 3
Reasons for granting the PETITION . . . . . 7
A. The Ninth Circuit Decision Conflicts With
This Court’s Res Judicata Jurisprudence
by Allowing Plaintiffs to Dictate Wasteful
Serial Litigation . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

v
Table of Contents
Page
B. The Ninth Circuit Decision Conf licts
With Decisions of the Seventh, Eighth
and Tenth Circuits that Prohibit the
Splitting of Single Enterprise Claims . . . . . . . . 10
C. The Ninth Circuit’s Decision to Allow the
Parties’ Agreement, Standing Alone, to
Determine the Res Judicata Scope of the
Judgment Is Based on Fallacious Reasoning
Which Merits Review By This Court  . . . . . . . . 12
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

vi
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, FILED MAY 8, 2019 . . . . . . . . 1a
APPENDIX B — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA,
	FILED APRIL 11, 2017 . . . . . . . . . . . . . . . . . . . . . . 13a
APPENDIX C — DENIAL OF REAHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT,
	FILED JUNE 17, 2019 . . . . . . . . . . . . . . . . . . . . . . . 36a

vii
TABLE OF CITED AUTHORITIES
Page
Cases
Airframe Sys. v. Raytheon Co.,
601 F.3d 9 (1st Cir. 2010) . . . . . . . . . . . . . . . . . . . . . . . 10
Chao v. A-One Med. Servs., Inc.,
346 F.3d 908 (9th Cir. 2003) . . . . . . . . . . . . . . . . . . . . . 9
Childress v. Darby Lumber, Inc.,
357 F.3d 1000 (9th Cir. 2004) . . . . . . . . . . . . . . . . . . . . 9
Clements v.
Airport Authority of Washoe County,
69 F.3d 321 (9th Cir. 1995) . . . . . . . . . . . . . . . . . . . . . 13
Commissioner v. Sunnen,
333 U.S. 591 (1948)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Dodd v. Hood River County,
59 F.3d 852 (9th Cir. 1995) . . . . . . . . . . . . . . . . . . . . . 14
EEOC v. Chemtech Int’l Corp.,
890 F. Supp. 623 (S.D. Tex. 1995) . . . . . . . . . . . . . . . . 9
Federated Dep’t Stores v. Moitie,
452 U.S. 394 (1981)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Heiser v. Woodruff,
327 U.S. 726 (1946)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

viii
Cited Authorities
Page
International Bhd. of Teamsters Local 952 v.
American Delivery Serv. Co., Inc.,
50 F.3d 770 (9th Cir. 1995) . . . . . . . . . . . . . . . . . . . . . . 9
Lenox MacLaren Surgical Corp. v.
Medtronic, Inc.,
847 F.3d 1221 (10th Cir. 2017) . . . . . . . . . . . . . . .  10, 11
Lusk v. Foxmeyer Health Corp.,
129 F.3d 773 (5th Cir. 1977) . . . . . . . . . . . . . . . . . . . . . 9
Mars Inc. v. Nippon Conlux Kabushiki-Kaisha,
58 F.3d 616 (Fed. Cir. 1995) . . . . . . . . . . . . . . . . . . . . 10
Midcontinent Broadcasting Co. v.
Dresser Industries, Inc.,
669 F.2d 564 (8th Cir. 1982) . . . . . . . . . . . . . . . . . . . . 11
Montana v. United States,
440 U.S. 147 (1979)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Morgan v. Safeway Stores, Inc.,
884 F.2d 1211 (9th Cir. 1989) . . . . . . . . . . . . . . . . . . . . 9
N.L.R.B. v. Carson Cable TV,
795 F.2d 879 (9th Cir. 1986) . . . . . . . . . . . . . . . . . . . . . 9
Robinson v. Volkswagenwerk AG,
56 F.3d 1268 (10th Cir. 1995) . . . . . . . . . . . . . . . . . . . 11

ix
Cited Authorities
Page
Supporters to Oppose Pollution v.
Heritage Group,
973 F.2d 1320 (7th Cir. 1992) . . . . . . . . . . . . . . . .  10, 11
Wojciechowski v. Kohlberg Ventures, LLC,
2017 U.S. Dist. LEXIS 55378, 2017 WL 1330515
(N.D. Cal. April 11, 2017) . . . . . . . . . . . . . . . . . . . . . . . 1
Wojciechowski v. Kohlberg Ventures, LLC,
923 F.3d 685, 2019 U.S. App. LEXIS 13715,
169 Lab. Cas. (CCH) P11,166
(9th Cir. May 8, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Statutes
28 U.S.C.A. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
29 U.S.C.A. § 2101(a)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
29 U.S.C.A. § 2102  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
29 U.S.C.A. § 2104(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C.A. § 6901-87 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Title VII of the Civil Rights Act of 1964 . . . . . . . . . . . . . 9
Other Authorities
20 C.F.R. § 639.3(a)(2)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

x
Cited Authorities
Page
29 C.F.R. § 825.104(c)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Federal Rule of Civil Procedure Rule 12(b)(6) . . . . . . . . 4
Restatement (Second) of Judgments § 26(1)(b)  . . . . . . 14
Supreme Court Rule 10(a) . . . . . . . . . . . . . . . . . . . . . . . . 10
Supreme Court Rule 10(c) . . . . . . . . . . . . . . . . . . . . . .  7, 13
Supreme Court Rule 11 . . . . . . . . . . . . . . . . . . . . . . . . . 1, 7

1
Petition for writ of certiorari
Petitioner, KOHLBERG VENTURES, LLC (the
Defendant below), respectfully prays that a writ of
certiorari issue to review the decision of the United States
Court of Appeals for the Ninth Circuit. Appendix 1a.
This Court should reverse the Ninth Circuit and affirm
the United States District Court’s dismissal based on res
judicata. Appendix 13a.
Opinions BELOW
The opinion of the Ninth Circuit Court of Appeals is
Wojciechowski v. Kohlberg Ventures, LLC, 923 F.3d 685,
2019 U.S. App. LEXIS 13715, 169 Lab. Cas. (CCH) P11,166
(9th Cir., May 8, 2019). Appendix 1a. The prior opinion of
the District Court is Wojciechowski v. Kohlberg Ventures,
LLC, 2017 U.S. Dist. LEXIS 55378, 2017 WL 1330515
(N.D. Cal. April 11, 2017). Appendix 13a.
Jurisdiction
This Court has jurisdiction to grant the Petition
under 28 U.S.C.A. § 1254(1). The Ninth Circuit opinion
was issued on May 8, 2019. Appendix 1a. Petitioner timely
moved for rehearing en banc. The Ninth Circuit denied
rehearing on June 17, 2019. Appendix 36a. This Petition
is for review under Supreme Court Rule 11 of a decision
of a United States court of appeals issued before final
judgment has been entered.

2
Statute and regulation INVOLVED
Respondent Wojciechowski (Plaintiff below) brought
two separate lawsuits that asserted the same claim under
the Worker Adjustment and Retraining Notification Act
of 1988, 29 U.S.C.A. § 2101 et seq. The first lawsuit was
against his actual employer ClearEdge Power, LLC
(“ClearEdge Power”), and its parent company ClearEdge
Power, Inc (“Parent Company”), as a “single employer.”
Respondent settled the first lawsuit, and dismissed it
with prejudice. Respondent’s second lawsuit is against
Petitioner, and asserts as the sole basis of Petitioner’s
liability that ClearEdge Power, its Parent Company, and
Petitioner, all together constituted a “single employer,”
based on Petitioner’s investment in and alleged control of
ClearEdge Power’s Parent Company. In the WARN Act
context, this is a “single employer” claim. The statute and
regulations relevant to this single employer claim are:
Any employer who orders a plant closing or
mass layoff in violation of section 2102 of this
title shall be liable to each aggrieved employee
who suffers an employment loss as a result of
such closing or layoff . . ..
29 U.S.C.A. § 2104(a)(1).
[T]he term “employer” means any business
enterprise that employs— (A) 100 or more
employees, excluding part-time employees; or
(B) 100 or more employees who in the aggregate
work at least 4,000 hours per week (exclusive of
hours of overtime) . . ..
29 U.S.C.A. § 2101(a)(1).

3
Under existing legal rules, independent
contractors and subsidiaries which are wholly
or partially owned by a parent company are
treated as separate employers or as a part of
the parent or contracting company depending
upon the degree of their independence from the
parent. Some of the factors to be considered
in making this determination are (i) common
ownership, (ii) common directors and /or
officers, (iii) de facto exercise of control, (iv)
unity of personnel policies emanating from
a common source, and (v) the dependency of
operations.
20 C.F.R. § 639.3(a)(2).
STATEMENT OF THE CASE
Respondent brought separate, serial WARN Act
lawsuits asserting the exact same claim. The first was
against his former alleged “single employer,” ClearEdge
Power and its Parent Company. That lawsuit was resolved
by a settlement and final judgment of dismissal with
prejudice. Respondent’s second lawsuit – the case at
issue here – is against yet an additional alleged “single
employer,” Petitioner, an investor in ClearEdge Power’s
Parent Company. Both lawsuits were and are based on
the same alleged conduct and alleged wrong, specifically
ClearEdge Power ’s ter mination of Respondent’s
employment without providing 60 days’ advance notice.
Because Petitioner’s only involvement with Clear Edge
Power was as an investor in ClearEdge Power’s Parent
Company, Respondent’s claim in this second lawsuit can
only succeed if Respondent establishes that Petitioner,

4
ClearEdge Power and its Parent Company were one and
the same employer when ClearEdge Power terminated
Respondent’s employment.
The District Court properly dismissed this second
lawsuit based on res judicata (claim preclusion) in
connection with Petitioner’s Federal Rule of Civil
Procedure Rule 12(b)(6) motion to dismiss. The District
Court’s decision was premised on the following, as either
alleged in Respondent’s Complaint or shown by judicial
notice:
Respondent was employed by ClearEdge Power. On
April 25, 2014, ClearEdge Power terminated Respondent’s
employment without 60 days’ advance notice, then
ClearEdge Power and its Parent Company filed petitions
in bankruptcy. Respondent sued ClearEdge Power and
its Parent Company for alleged violations of the WARN
Act in an adversary proceeding in the Bankruptcy Court.
Respondent settled that lawsuit on a class basis. The
Bankruptcy Court approved the settlement on April 5,
2016, and dismissed the lawsuit with prejudice.
The dismissal with prejudice did not expressly reserve
to Respondent any right to bring a second lawsuit against
Petitioner for the same claim. The Settlement and Release
Agreement, however, included a release of claims that
excluded “any third parties,” and that went on to state
that one of the excluded “third parties” was Petitioner
(Kohlberg Ventures, LLC):
[T]he Class Members . . . do hereby fully and
forever release and discharge (i) Defendants
ClearEdge Power, Inc. and ClearEdge Power,

5
LLC and their respective estates, (ii) each of
Defendants’ current and former shareholders,
officers, directors, employees, accountants,
attorneys, representatives and other agents,
and all of their respective predecessors,
successors and assigns, excluding any third
parties which may or may not be affiliated
with Defendants ClearEdge Power, Inc. and
ClearEdge Power LLC, including but not
limited to, Kohlberg Ventures LLC.
Respondent did nothing to advise the Bankruptcy
Court that he intended this exclusion of “third parties,”
buried in a release of claims, would modify the claimpreclusive effect of the resulting judgment of dismissal
with prejudice so as to permit a second lawsuit against
Petitioner asserting the very same “single employer”
WARN Act claim that Respondent was settling. To the
contrary, Respondent represented to the Bankruptcy
Court that the settlement resolved “any and all claims
asserted, or which could have been asserted, in the WARN
Class Action.” (emphasis added). Because the Bankruptcy
Court was not asked to approve claim splitting by the
Respondent, neither its approval of the settlement nor its
dismissal of the case with prejudice addressed the issue.
Based on these uncontested facts, the District Court
found that res judicata precluded this second lawsuit. The
District Court concluded:
• Respondent could have brought this claim against
Petitioner in the bankruptcy proceedings but did
not do so. Appendix 29a-30a.

6
• It would be unfair to allow Respondent a second
bite of the apple. Appendix 34a-35a.
• A llow ing Respondent to proceed would not
encourage parties to conserve judicial resources.
Appendix 35a.
• Claim splitting was not authorized by consent
because Petitioner was not a party to the settlement
and ClearEdge Power and its Parent Company
had no authority to consent on Petitioner’s behalf.
Appendix 23a-26a.
• Claim splitting was not authorized by “express
reservation” by the Bankruptcy Court because
“there is no indication the bankruptcy court
specifically considered the matter or expressly
reserved [Respondent’s] right to pursue a second
WARN claim against [Petitioner].” Appendix
26a-28a.
The Ninth Circuit reversed on the basis that the
preclusive effect of a consented-to judgment should be
governed exclusively by the agreement of the parties to
the first lawsuit. On that basis alone, the Ninth Circuit
held that the release carve out for “third parties” in the
Settlement Agreement relieved Respondent from the
normal claim-preclusive effect of the judgment, despite
the fact that the Bankruptcy Court had not addressed
the question of claim splitting. Appendix 3a.
The Ninth Circuit’s holding, if permitted to stand,
will improperly allow a plaintiff and settling defendants
to dictate to the federal courts that the same “single

7
employer” or “single enterprise” claims may be brought
multiple times in serial lawsuits against different
defendants, contrary to fundamental principles of federal
claim preclusion. This holding is not limited to the WARN
Act, but would apply to all lawsuits in federal court
involving “single employer” or “single enterprise” claims.
Reasons for granting the PETITION
A. The Ninth Circuit Decision Conflicts With This
Court’s Res Judicata Jurisprudence by Allowing
Plaintiffs to Dictate Wasteful Serial Litigation
The Ninth Circuit decision presents an important
question of federal law which is not limited to the instant
case, but applies to all employment and other federal cases
with alleged “single employer” or “single enterprise”
status. This question has not been, but should be, settled
by this Court, such that a writ of certiorari is appropriate
under Supreme Court Rule 10(c). Further, the Ninth
Circuit decision, if not reversed, will spawn an unjustified
multiplicity of litigation, which justifies a determination in
this Court before final judgment has been entered below,
as provided under Supreme Court Rule 11.
Res judicata, or claim preclusion, bars re-litigation of
any claims that could have been raised in a prior action.
Federated Dep’t Stores v. Moitie, 452 U.S. 394, 398 (1981).
Application of this doctrine “is central to the purpose for
which civil courts have been established, the conclusive
resolution of disputes within their jurisdictions.” Montana
v. United States, 440 U.S. 147, 153 (1979). There is “no
principle of law or equity which sanctions the rejection by
a federal court of the salutary principle of res judicata
. . . .” Heiser v. Woodruff, 327 U.S. 726, 733 (1946).

8
Res judicata benefits individual parties, but more
importantly, it benefits the courts and society as a whole.
The general rule of res judicata “rests upon considerations
of economy of judicial time and public policy favoring
the establishment of certainty in legal relations.”
Commissioner v. Sunnen, 333 U.S. 591, 597 (1948).
The Ninth Circuit decision undermines these res
judicata policies long recognized by this Court. The issue
arises in all federal cases in which multiple entities are
alleged to be liable on the basis that they are a ”single
employer” or “single enterprise.” According to the Ninth
Circuit in the instant case, a plaintiff can sue just one or
two members of an alleged “single employer,” obtain a
settlement that excludes “third parties” from the release
(even if they are alleged to be the same “single employer”),
and then, without court review or approval, bring the
identical claim against the next member of the “single
employer” in a new lawsuit. This places claim splitting
in the exclusive control of the plaintiff, because the first
defendants will have every reason to agree to a carve-out
allowing later lawsuits against alleged additional “single
employers” in order to facilitate the dismissal of the
lawsuit against the first defendants.
This Ninth Circuit rule will have a broad impact
because of the number of areas of law in which “single
employer” or “single enterprise” claims might be
brought. Within federal employment law alone, the “single
employer” (sometimes referred to as an “integrated
employer”) concept has been recognized under no less
than eight statutes:

9
The Worker Adjustment and Retraining Notification
Act. Childress v. Darby Lumber, Inc., 357 F.3d 1000, 100507 (9th Cir. 2004).1
The National Labor Relations Act. N.L.R.B. v.
Carson Cable TV, 795 F.2d 879, 881 (9th Cir. 1986).
The Labor Management Relations Act. International
Bhd. of Teamsters Local 952 v. American Delivery Serv.
Co., Inc., 50 F.3d 770, 775 (9th Cir. 1995).
The Fair Labor Standards Act. Chao v. A-One Med.
Servs., Inc., 346 F.3d 908, 917 (9th Cir. 2003).
Title VII of the Civil Rights Act of 1964. Morgan v.
Safeway Stores, Inc., 884 F.2d 1211, 1213 (9th Cir. 1989).
The Age Discrimination in Employment Act. Lusk
v. Foxmeyer Health Corp., 129 F.3d 773, 777 (5th Cir.
1977).
The Family and Medical Leave Act. 29 C.F.R.
§ 825.104(c)(2).
The Americans with Disabilities Act. EEOC v.
Chemtech Int’l Corp., 890 F. Supp. 623, 625 (S.D.Tex.1995).

1. Childress recognized the single employer doctrine under
the WARN Act in order to aggregate the employees of two entities
to establish the size of the employer. In the case at bar Respondent
asserts that single employer status also establishes vicarious
liability, a contention that Petitioner does not concede.

10
In addition, “single entity” or “single enterprise”
vicarious liability has been recognized in many nonemployment contexts, including:
Antitrust. Lenox MacLaren Surgical Corp. v.
Medtronic, Inc., 847 F.3d 1221 (10th Cir. 2017).
Copyrights. Airframe Sys. v. Raytheon Co., 601 F.3d
9 (1st Cir. 2010).
Patents. Mars Inc. v. Nippon Conlux KabushikiKaisha, 58 F.3d 616 (Fed. Cir. 1995).
Environmental Claims. Supporters to Oppose
Pollution v. Heritage Group, 973 F.2d 1320, 1322 (7th Cir.
1992) (utilizing state “alter ego” law to assert claim under
the Resource Conservation and Recovery Act of 1976, 42
U.S.C. §§ 6901-87).
Unless reversed, the Ninth Circuit decision creates a
new exception to claim preclusion that will spawn multiple
successive lawsuits asserting “single employer” or “single
enterprise” liability that otherwise should be limited to
a single lawsuit.
B. The Ninth Circuit Decision Conflicts With Decisions
of the Seventh, Eighth and Tenth Circuits that
Prohibit the Splitting of Single Enterprise Claims
The Ninth Circuit decision conflicts with decisions of
the Seventh, Eighth and Tenth Circuits, such that a writ
of certiorari is also appropriate under Supreme Court
Rule 10(a).

11
The Seventh, Eighth and Tenth Circuits have ruled
that serial litigation of the same claim against parties
alleged to be part of a single enterprise is prohibited
by res judicata. In each of these courts, a subsequent
lawsuit was barred based on the alleged or admitted
integrated relationship between parties in serial lawsuits.
In the Seventh Circuit, a subsequent lawsuit was barred
against an investor in the defendant in an earlier lawsuit,
because the only claim against the investor was that it
had controlled the first defendant. Supporters to Oppose
Pollution v. Heritage Group, 973 F.2d 1320, 1325-28 (7th
Cir. 1992) (judgment in RCRA lawsuit against operator
of landfill precluded second lawsuit against investor that
plaintiff alleged had controlled the operator). The Eight
Circuit similarly prohibited a second bite at the apple
where plaintiffs in later lawsuits were the controlling
owners of the plaintiff in an earlier lawsuit. Midcontinent
Broadcasting Co. v. Dresser Industries, Inc., 669 F.2d
564, 567 (8th Cir. 1982) (where parties have a relationship
“bordering on near identity” (same as single employer)
they are “for purposes of res judicata the same parties”).
Likewise, the Tenth Circuit has rejected attempts by
plaintiffs to relitigate the same claim against parties
alleged to have been part of a single enterprise. Lenox
MacLaren Surgical Corp. v. Medtronic, Inc., 847 F.3d
1221, 1239 (10th Cir. 2017) (where antitrust claim hinged
on plaintiff proving the defendants in the first and second
lawsuits were part of a single enterprise, the Tenth Circuit
held that “if the parties were functionally or ‘near[ly]’
acting as one, then they are in privity, such that a final
judgment against one bars a subsequent action against the
other for the same injury”); Robinson v. Volkswagenwerk
AG, 56 F.3d 1268, 1275 (10 th Cir. 1995) (where product
liability suit against corporate parent was based on

12
claim it had a “controlling relationship” over defendant
in earlier lawsuit that allegedly committed wrongdoing,
the Tenth Circuit held “this ‘near alter ego’ relationship
would be sufficient to establish ‘privity’ between the two
corporations such that [the parent] is entitled to assert
the previous judgment [against the subsidiary] as a bar
to the claim now asserted.”).
Other than the Ninth Circuit’s decision in this case,
Petitioner is not aware of law to the contrary. The Ninth
Circuit’s decision in this case permits plaintiffs to avoid
this res judicata bar by merely obtaining agreement from
a settling defendant who has no reason to disagree. The
Ninth Circuit holding is in direct conflict with the Seventh,
Eighth and Tenth Circuit holdings.
C. The Ninth Circuit’s Decision to Allow the Parties’
Agreement, Standing Alone, to Determine the
Res Judicata Scope of the Judgment Is Based on
Fallacious Reasoning Which Merits Review By
This Court
This Court has long held that res judicata plays an
important role in limiting the cases that can be pursued
following a judgment on the merits. However, this Court
has not addressed the application of res judicata in the
context of single employer liability, a statutory scheme that
has become more prevalent in federal legislation crossing
multiple areas of the law. The Ninth Circuit decision
negates the res judicata benefits and protections afforded
litigants and the courts by holding that a settlement
agreement, standing alone, controls the res judicata
scope of a judgment entered by consent, regardless of the
extent or type of duplicative litigation that the agreement
purports to authorize. This is an erroneous extension of

13
the law that, in general, permits a defendant to consent
that a judgment will not bar a later claim against that
defendant. In the case at bar, Petitioner was not a party
to, or even aware of, the first lawsuit and did not consent
to being sued in the instant lawsuit. Absent correction
by this Court, this erroneous ruling will undermine the
limitations imposed by res judicata under federal law
in all lawsuits premised on “single employer” or “single
enterprise” liability. This is an important question of
federal law that has never been addressed by this Court,
such that a writ of certiorari is appropriate under Supreme
Court Rule 10(c).
If a party consents that a judgment will permit a
later claim against that party, an established exception
to res judicata applies. The basis for this exception is that
the party, by giving consent, has waived its own right
to assert a defense of res judicata, which is a waivable
defense. See Clements v. Airport Authority of Washoe
County, 69 F.3d 321, 328 (9th Cir. 1995) (this exception
involves a waiver by the defendant of its defense of claim
preclusion). Thus, the cases on which the Ninth Circuit
relied that have held res judicata is governed by the
parties’ agreement are cases in which the defendant in the
second suit was bound by its own direct involvement in the
first lawsuit, or by the involvement in the first lawsuit by
the defendant’s predecessor in interest. 2 In the case at bar,
however, Petitioner did not agree to waive its defense of
res judicata. It was not a party to the settlement, and no
party to the settlement had authority to act on Petitioner’s
behalf.
2. Other citations are to dicta, or to cases in which the
defendant in the second case could not establish “party or privy”
status in any event.

14
More important, the res judicata exception based on
a defendant waiving its own defense of res judicata is
self-limiting, consistent with the public policy underlying
res judicata. A defendant will always be motivated to
decline to agree to a later lawsuit against it unless there
is a particular reason to agree. The rule the Ninth Circuit
adopted in this case, in contrast, is not self-limiting. In
single enterprise cases, the first defendant sued has
every reason to agree that a later lawsuit may be brought
against others, if doing so will induce the Plaintiff to
dismiss the first lawsuit against it. For this reason, the
policies underlying res judicata can be sustained in single
enterprise cases only by a rule that requires express court
approval of claim splitting. See Restatement (Second) of
Judgments § 26(1)(b) (claim preclusion does not apply if
the court in the first action “has expressly reserved the
plaintiff’s right to maintain the second action”); Dodd
v. Hood River County, 59 F.3d 852, 862 (9th Cir. 1995)
(adopting this “express reservation” exception). Requiring
an “express reservation” by the court preserves an
appropriate gate-keeping role for the court, allowing
the court to guard against unnecessary or unreasonable
impositions on the courts’ resources through unnecessary
litigation.

15
CONCLUSION
The rule adopted by the Ninth Circuit in this case
guts the application of res judicata principles in single
enterprise cases, in contravention of this Court’s res
judicata jurisprudence and in conflict with the single
enterprise res judicata decisions of the Seventh, Eight
and Tenth Circuits. This Court should issue a writ of
certiorari, reverse the Ninth Circuit Court of Appeals,
and affirm the District Court’s dismissal based on res
judicata.
Respectively submitted,
George J. Tichy, II
Michael F. McCabe
Littler Mendelson, P.C.
333 Bush Street, 34th Floor
San Francisco, California 94104
(415) 433-1940

Daniel L. Thieme
Counsel of Record
Littler Mendelson, P.C.
600 University Street,
Suite 3200
Seattle, WA 98101
(206) 623-3300
dthieme@littler.com

Attorneys for Petitioner
Kohlberg Ventures, LLC

September 13, 2019

APPENDIX

1a
Appendix A — Appendix
opinionAof the UNITED
STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, FILED May 8, 2019
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-15966
PETER WOJCIECHOWSKI, ON HIS OWN BEHALF
AND ON BEHALF OF ALL OTHER PERSONS
SIMILARLY SITUATED,
Plaintiff-Appellant,
v.
KOHLBERG VENTURES, LLC,
Defendant-Appellee.
March 7, 2019, Argued and Submitted,
Seattle, Washington
May 8, 2019, Filed
Appeal from the United States District Court
for the Northern District of California.
D.C. No. 3:16-cv-06775-MEJ.
Maria-Elena James, Magistrate Judge, Presiding.
Before: Ronald M. Gould and Richard A. Paez, Circuit
Judges, and Janis Graham Jack,* District Judge. Opinion
by Judge Gould.
* The Honorable Janis Graham Jack, United States District
Judge for the Southern District of Texas, sitting by designation.

2a
Appendix A
Opinion by: Ronald M. Gould
SUMMARY**
Labor Law / Claim Preclusion
Reversing the district court’s dismissal, the panel held
that claim preclusion did not bar a claim against Kohlberg
Ventures, LLC, under the Worker Adjustment Retraining
and Notification Act because a settlement agreement
approved by the bankruptcy court in a prior class action
did not release any claims against Kohlberg.
The panel concluded that the parties in the bankruptcy
proceeding did not intend their settlement to extend to
Kohlberg. Accordingly, claim preclusion did not bar
plaintiff’s WARN Act claim against Kohlberg. The panel
remanded the case for further proceedings.
Opinion
GOULD, Circuit Judge:
“By ‘preclud[ing] parties from contesting matters that
they have had a full and fair opportunity to litigate,’” the
related doctrines of claim and issue preclusion “protect
against ‘the expense and vexation attending multiple
lawsuits, conserv[e] judicial resources, and foste[r]
reliance on judicial action by minimizing the possibility of
** This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the reader.

3a
Appendix A
inconsistent decisions.’” Taylor v. Sturgell, 553 U.S. 880,
892, 128 S. Ct. 2161, 171 L. Ed. 2d 155 (2008) (alterations
in original) (quoting Montana v. United States, 440 U.S.
147, 153-154, 99 S. Ct. 970, 59 L. Ed. 2d 210 (1979)).1 We
consider here whether a prior action brought by PlaintiffAppellant Peter Wojciechowski against nonparties to this
case bars this action against Defendant-Appellee Kohlberg
Ventures LLC, under the doctrine of claim preclusion. The
previous action—a class action—settled, and the court
approved the settlement agreement and closed the case.
The settlement agreement released Wojciechowski’s and
the class’s claims against various parties, but it explicitly
did not release any claims against Kohlberg. Kohlberg
was not a party to the agreement.
We hold that the settlement agreement—and in
particular, the intent of the settling parties—determines
the preclusive effect of the previous action. Because
the settlement agreement specifically did not release
Wojciechowski’s and the class’s claims against Kohlberg,
claim preclusion does not bar Wojciechowski’s current
claim. The district court erred in dismissing this action,
and we reverse and remand for further proceedings.

1. The terms “claim preclusion” and “issue preclusion” “have
replaced a more confusing lexicon. Claim preclusion describes the
rules formerly known as ‘merger’ and ‘bar,’ while issue preclusion
encompasses the doctrines once known as ‘collateral estoppel’
and ‘direct estoppel.’” Taylor, 553 U.S. at 892 n.5. The term “res
judicata” refers “collectively” to claim and issue preclusion. Id. at
892. For clarity, we use the terms “claim preclusion” and “issue
preclusion,” and we are concerned here with the former.

4a
Appendix A
I2
Wojciechowski was formerly employed by ClearEdge
Power, LLC. He was terminated without notice. Six days
later, ClearEdge Power, LLC—along with its owner,
ClearEdge Power, Inc.—filed for bankruptcy.
Wojciechowski filed an adversary class action against
the ClearEdge entities in the bankruptcy court. He alleged
that the two ClearEdge entities were a “single employer”
under the Worker Adjustment and Retraining Notification
(“WARN”) Act, 29 U.S.C. §§ 2101-2109, and that the
entities violated that act when they fired him and other
employees without 60 days’ advance notice.3 Wojciechowski
settled that action. Per the settlement agreement, the
class released all claims it had against “(i) Defendants
2. The following recitation of facts is derived from the wellpleaded facts in Wojciechowski’s complaint—which we accept as
true at the motion-to-dismiss stage, see Garity v. APWU Nat’l
Labor Org., 828 F.3d 848, 851 n.1 (9th Cir. 2016) (citing Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 556, 127 S. Ct. 1955, 167 L. Ed.
2d 929 (2007) and documents of which the district court took
judicial notice.
3. Liability under the WARN Act extends only to a person’s
“employer.” 29 U.S.C. § 2104(a)(1). But the term “employer” may
include parent and subsidiary companies “depending on the degree
of their independence” from one another and considering “(i)
common ownership, (ii) common directors and/or officers, (iii) de
facto exercise of control, (iv) unity of personnel policies emanating
from a common source, and (v) the dependency of operations.”
Childress v. Darby Lumber, Inc., 357 F.3d 1000, 1006 (9th Cir.
2004) (quoting Int’l Bd. of Teamsters v. Am. Delivery Serv. Co.,
50 F.3d 770, 775 (9th Cir. 1995)).

5a
Appendix A
ClearEdge, Power, Inc. and ClearEdge Power, LLC and
their respective estates,” and “(ii) each of the Defendants’
current and former shareholders, officers, directors,
employees, accountants, attorneys, representatives and
other agents, and all of their respective predecessors,
successors and assigns, excluding any third parties which
may or may not be affiliated with Defendants ClearEdge
Power, Inc. and ClearEdge Power LLC, including, but
not limited to Kohlberg Ventures LLC.” Kohlberg was not
involved in the bankruptcy proceedings or in settlement
negotiations. The bankruptcy court approved the
settlement agreement and closed the case soon after. The
ClearEdge estates paid a portion of the class members’
WARN Act wages and benefits.
Wojciechowski then filed this putative class action.
He alleges that Kohlberg, as a “single employer” with
the ClearEdge entities, violated the WARN Act when it
fired him without advance notice. Wojciechowski seeks
“an award for the balance of the Class’[s] WARN Act
wages and benefits.” That is, he seeks what the class is
owed under the Act less the amount received from the
ClearEdge estates.
Kohlberg moved to dismiss Wojciechowski’s claim on
the basis of claim preclusion. The district court granted
Kohlberg’s motion. Relevant here, the district court
held that Kohlberg could not be bound by the settlement
agreement—and the provision preserving the class’s
claims against Kohlberg—because Kohlberg was not a
party to the adversary proceeding and did not agree to
allow Wojciechowski to split his claim.

6a
Appendix A
Wojciechowski timely appealed.
II
We review de novo whether claim preclusion bars
Wojciechowski’s claim. Harris v. Cty. of Orange, 682 F.3d
1126, 1131 (9th Cir. 2012). Kohlberg must establish that
preclusion applies. Taylor, 553 U.S. at 906.
III
A
Under the doctrine of claim preclusion, “a final
judgment on the merits” in a case precludes a successive
action between “identical parties or privies” concerning
“the same ‘claim’ or cause of action.” Mpoyo v. Litton
Electro-Optical Sys., 430 F.3d 985, 987 (9th Cir. 2005)
(quoting Sidhu v. Flecto Co., 279 F.3d 896, 900 (9th Cir.
2002)). However, the claim preclusion “inquiry is modified
in cases where the earlier action was dismissed in
accordance with a release or other settlement agreement.”
U.S. ex rel. May v. Purdue Pharma L.P., 737 F.3d 908,
913 (4th Cir. 2013).4
4. When a case is dismissed with prejudice but there is no
settlement agreement, normal claim preclusion rules apply. See
Norfolk S. Corp. v. Chevron, U.S.A., Inc., 371 F.3d 1285, 1289 (11th
Cir. 2004) (“In the absence of a settlement agreement, of course,
a judgment of dismissal pursuant to Rule 41 should be given the
same res judicata effect as any other judgment.”); see also Int’l
Union of Operating Eng’rs-Empl’rs Constr. Indus. Pension,
Welfare & Training Tr. Funds v. Karr, 994 F.2d 1426, 1429 (9th

7a
Appendix A
A judgment entered “based upon the parties’
stipulation, unlike a judgment imposed at the end of an
adversarial proceeding, receives its legitimating force
from the fact that the parties consented to it.” Norfolk
S. Corp. v. Chevron, U.S.A., Inc., 371 F.3d 1285, 1288
(11th Cir. 2004). “A settlement can limit the scope of the
preclusive effect of a dismissal with prejudice by its terms.”
U.S. ex rel. Barajas v. Northrop Corp., 147 F.3d 905, 911
(9th Cir. 1998); see also Pactiv Corp. v. Dow Chem. Co.,
449 F.3d 1227, 1231 (Fed. Cir. 2006) (noting that “parties
can, in a separate agreement, . . . reserve the right to
litigate a claim that would otherwise be barred by” claim
preclusion); May v. Parker-Abbott Transfer & Storage,
Inc., 899 F.2d 1007, 1010 (10th Cir. 1990) (commenting
that “consent decrees are of a contractual nature and,
as such, their terms may alter the preclusive effects of a
judgment”); Restatement (Second) of Judgments § 26(1)
(a) (1982) (preclusion does not apply if “[t]he parties have
agreed in terms or in effect that the plaintiff may split
his claim”).
We look to the intent of the settling parties to
determine the preclusive effect of a dismissal with
prejudice entered in accordance with a settlement
agreement, rather than to general principles of claim
preclusion. See F.T.C. v. Garvey, 383 F.3d 891, 898 n.7 (9th
Cir. 2004) (“The basically contractual nature of consent
judgments has led to general agreement that preclusive
effects should be measured by the intent of the parties.”
Cir. 1993) (“The dismissal of the action with prejudice constitutes
a final judgment on the merits . . . .”).

8a
Appendix A
(quotation omitted)); Norfolk S. Corp., 371 F.3d at 1289 (“In
determining the res judicata effect of an order of dismissal
based upon a settlement agreement, we should . . . attempt
to effectuate the parties’ intent.”). “The best evidence of
[the parties’] intent is . . . the settlement agreement itself
. . . , as interpreted according to traditional principles of
contract law.” Norfolk S. Corp., 371 F.3d at 1289; see also
Purdue Pharma, 737 F.3d at 913 (“[G]iven the contractual
nature of consent decrees and settlement agreements,
the preclusive effect of a judgment based on such an
agreement can be no greater than the preclusive effect
of the agreement itself.”); In re Prudential Ins. Co. of
Am. Sales Practice Litig., 261 F.3d 355, 366 (3d Cir. 2001)
(analyzing the terms of a class settlement to determine
whether the settlement precluded a subsequent action).
Here, Wojciechowski and the class in the prior
bankruptcy proceeding settled their WARN Act claim
against the ClearEdge entities. The bankruptcy court
approved the settlement agreement and closed the case,
giving the agreement preclusive effect. See RFF Family
P’ship, LP v. Ross, 814 F.3d 520, 532 (1st Cir. 2016) (“We
have held in cases under federal law that settlements may
have preclusive effect if there is court approval of the
settlement or there is entry of judgment with prejudice.”);
18A Charles Alan Wright et al., Federal Practice and
Procedure § 4443 (3d ed. 2018 update) (“[A] private
settlement agreement does not give rise to preclusion if
it is not transformed into a judgment. Whatever effect it
has on the future relationships between the parties derives
from its force as a contract, not from res judicata.”). The
settlement agreement released the class’s claims against

9a
Appendix A
the ClearEdge entities and other parties, but it explicitly
preserved claims against “any third parties which may or
may not be affiliated with Defendants ClearEdge Power,
Inc. and ClearEdge Power LLC, including, but not limited
to Kohlberg Ventures LLC.” Under the unambiguous
terms of the settlement agreement, Wojciechowski’s and
the class’s claims against Kohlberg are not precluded here.
See Klamath Water Users Protective Ass’n v. Patterson,
204 F.3d 1206, 1210 (9th Cir. 1999) (“Contract terms are
to be given their ordinary meaning, and when the terms
of a contract are clear, the intent of the parties must be
ascertained from the contract itself.”), as amended on
denial of reh’g, 203 F.3d 1175 (9th Cir. 2000); see also
Norfolk S. Corp., 371 F.3d at 1290 (“Where the plain
meaning of an agreement is clear, we may not go beyond
the four corners of the document to look for additional
evidence of the drafters’ intentions.”).
B
Kohlberg does not dispute that the terms of the
agreement seemingly allow Wojciechowski to pursue his
current claim. Instead, Kohlberg contends that it cannot
be bound by the settlement agreement because it was not
a party to the adversary proceeding and did not agree to
the terms of the settlement agreement.
Kohlberg is incorrect. Two (or more) parties “may
negotiate a settlement of [a] dispute and . . . execute a
release of all claims. The release acts as a simple contract
between the two private parties . . . .” Grimes v. Vitalink
Commc’ns Corp., 17 F.3d 1553, 1557 (3d Cir. 1994). But

10a
Appendix A
when a court dismisses an action because of a settlement,
“the settlement and release of claims . . . is stamped with
the imprimatur of [a] court with jurisdiction over the
parties and the subject matter of the lawsuit.” Id. The
settlement and release become a “final judgment” and
“not simply a contract entered into by . . . private parties
. . . .” Id.
Here, when the bankruptcy court approved the
settlement agreement in the previous action, that
agreement became entitled to preclusive effect separate
and apart from any contractual obligations it imposed
on the parties. See RFF Family P’ship, LP, 814 F.3d at
532 (“[S]ettlements may have preclusive effect if there
is court approval of the settlement or there is entry of
judgment with prejudice.”); Barajas, 147 F.3d at 911 (“A
settlement can limit the scope of the preclusive effect of
a dismissal with prejudice by its terms.”); Restatement
(Second) of Judgments § 26(1)(b) (preclusion does not apply
if “[t]he court in the first action has expressly reserved
the plaintiff’s right to maintain the second action.”). The
agreement determines the scope of preclusion in this
action as a matter of preclusion law, not as a matter of
contract. See Wright, Federal Practice and Procedure
§ 4443. Because we are not imposing any obligations
on Kohlberg as a matter of contract, it does not matter
whether Kohlberg, as a nonparty to the contract, is bound
by its terms. Instead, we consider whether the settling
parties intended to preclude Wojciechowski’s current
claim as a matter of preclusion law. As explained above,
they did not.

11a
Appendix A
Kohlberg’s contention has another fundamental flaw.
Kohlberg, by raising a preclusion defense, asks us to give
the settlement agreement greater preclusive effect than
the parties intended. But as we have previously explained,
“[t]he basically contractual nature of consent judgments
has led to general agreement that preclusive effects should
be measured by the intent of the parties.” Garvey, 383
F.3d at 898 n.7. We are not at liberty to give the agreement
greater preclusive effect than the parties intended. See
Purdue Pharma, 737 F.3d at 913 (“[G]iven the contractual
nature of consent decrees and settlement agreements,
the preclusive effect of a judgment based on such an
agreement can be no greater than the preclusive effect of
the agreement itself.”); Bandai Am. Inc. v. Bally Midway
Mfg. Co., 775 F.2d 70, 74--75 (3d Cir. 1985) (because Namco
“was not a party to the settlement agreement” and “was
expressly excluded from the release which that agreement
contains,” “Namco cannot use the settlement agreement
or the judgment as a basis for estopping Bandai from
pursuing the causes of action pleaded against it”); In re
Princeton-N.Y. Inv’rs, Inc., 255 B.R. 376, 388 (Bankr.
D.N.J. 2000).
IV
We hold that cla i m preclusion does not ba r
Wojciechowski’s WARN Act claim against Kohlberg
because the parties in the bankruptcy proceeding did
not intend their settlement to extend to claims against
Kohlberg. 5 It is of no moment that Kohlberg neither
5. Because this ground is sufficient to hold that preclusion
does not apply, we do not address Wojciechowski’s other arguments.

12a
Appendix A
consented to nor approved the agreement. Because claim
preclusion does not bar Wojciechowski’s claim, we reverse
the district court’s dismissal of his claim and remand for
further proceedings.
REVERSED AND REMANDED.

13a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA,
FILED APRIL 11, 2017
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
Case No. 16-cv-06775-MEJ
PETER WOJCIECHOWSKI,
Plaintiff,
v.
KOHLBERG VENTURES, LLC,
Defendant.
ORDER RE: MOTION TO DISMISS
Re: Dkt. No. 20
INTRODUCTION
Pending before the Court is Defendant Kohlberg
Ventures, LLC (“Kohlberg”)’s Motion to Dismiss
pursuant to Federal Rule of Civil Procedure (“Rule”)
12(b)(6). Plaintiff Peter Wojciechowski (“Plaintiff”) filed
an Opposition (Dkt. No. 32) and Kohlberg filed a Reply
(Dkt. No. 33). Having considered the parties’ positions,
the relevant legal authority, and the record in this case,
the Court GRANTS Kohlberg’s Motion for the following
reasons.

14a
Appendix B
BACKGROUND1
A. Factual Allegations
Non-party ClearEdge employed Plaintiff as a
Configuration Manager. Compl. ¶¶ 1 & 10-11, Dkt. No. 1;
see also id. ¶ 1 n.3 (“‘ClearEdge’ or ‘ClearEdge Power’
refers to ClearEdge Power, Inc. and ClearEdge Power,
LLC and their affiliates and subsidiaries which were
colloquially referred to as ClearEdge Power.”). ClearEdge
developed fuel cell technology known as proton exchange
membrane. Id. ¶ 21. Plaintiff alleges that, for purposes of
the Worker Adjustment and Retraining Notification Act,
29 U.S.C. §§ 2101-2109 (the “WARN Act”), Kohlberg was a
single employer with ClearEdge. Id. ¶¶ 1-2. He alleges that
Kohlberg, a venture capital firm, invested more than $130
million in ClearEdge between 2004 and 2014. Id. ¶¶ 1820. He further alleges Kohlberg owned and controlled
ClearEdge directly or through subsidiaries or related
entities; maintained and operated ClearEdge facilities;
and made the decisions that gave rise to the terminations
at issue without providing advance written notice. Id.
¶¶ 13-16. ClearEdge relocated its corporate headquarters
to offices minutes away from Kohlberg’s, and often met
with Kohlberg executives at Kohlberg headquarters.
Id. ¶¶ 24-25. One of the Kohlberg executives ClearEdge
met with was James A. Kohlberg (“Mr. Kohlberg”).
Id. ¶ 25. Kohlberg’s headquarters provided ClearEdge
office space—including an office for ClearEdge’s Chief
1. This section incorporates the well-pleaded allegations of
the Complaint, which the Court accepts as true for purposes of this
Motion to Dismiss.

15a
Appendix B
Executive Officer (“CEO”)—and placed the ClearEdge
logo besides the Kohlberg logo in the building’s entryway.
Id. ¶¶ 27-28. Plaintiff alleges Kohlberg and ClearEdge
shared common ownership, officers, and directors, and
that Kohlberg exercised de facto control over ClearEdge
while ClearEdge depended on Kohlberg to operate. Id.
¶¶ 49-75.
By December 2013, it was apparent ClearEdge’s
business model had become unsustainable: ClearEdge
needed to drastically reduce its costs, overhead, and
pricing, and to raise tens of millions of dollars. Id. ¶¶ 30-34.
In late 2013 and early 2014, Samsung proposed to purchase
ClearEdge fuel cells in a deal expected to generate $50$100,000 for ClearEdge. Id. ¶ 35. Kohlberg infused more
cash into ClearEdge, conditioned on ClearEdge closing
the deal with Samsung. Id. ¶ 36. While Samsung placed
its order on March 20, 2014, no work could begin until
Samsung obtained approval from a Korean public-private
entity development agency; Samsung also required
confirmation Kohlberg would continue to provide financial
backing to ClearEdge. Id. ¶ 37. Mr. Kohlberg balked at
infusing more cash into the company, and when Samsung
did not provide certain guarantees, he announced in
an email dated March 31, 2014 that ClearEdge was
closing; the email was sent without prior board action or
meeting, and without knowledge of ClearEdge’s CEO.
Id. ¶¶ 40-41; see also id. ¶ 76 (in deciding to stop funding
ClearEdge, “Kohlberg acknowledged that he, as the chief
of Kohlberg Ventures, was putting an end to ClearEdge”).
Understanding the scope of the investment ClearEdge
would need to get to profitability, Mr. Kohlberg decided

16a
Appendix B
not to provide additional funding. Id. ¶¶ 43-44. On April
16, 2014, ClearEdge received retainer agreements from
bankruptcy counsel. Id. ¶ 45. ClearEdge’s Board resolved
to file for Chapter 11 protection six days later. Id. ¶ 46.
ClearEdge’s employees were terminated April 25, 2014.
Id. ¶ 47. ClearEdge filed its bankruptcy petition on May
1, 2014 in the Northern District of California. Id. ¶ 48.
B. Bankruptcy Proceedings & Settlement
Plaintiff on behalf of himself and other similarly
situated employees brought an adversary proceeding
in the ClearEdge bankruptcy proceedings. Id. ¶ 5. A
class was certified; Plaintiff was appointed as class
representative and settled the matter with ClearEdge. Id.;
see also Opp’n 3. By executing the settlement agreement,
Plaintiff and the other class members agreed to
fully and forever release and discharge (i)
[ClearEdge] and their respective estates,
(ii) each of [their] shareholders, officers,
directors, employees, accountants, attorneys,
representatives and other agents, and all of
their respective predecessors, successors and
assigns, excluding any third parties which
may or may not be affiliated with [them],
including but not limited to, Kohlberg
Ventures LLC . . . of and from any and all
claims, demands, debts, liabilities, obligations,
liens, actions and causes of action, costs,
expenses, attorneys’ fees and damages of
whatever kind and nature, at law, in equity

17a
Appendix B
and otherwise, whether known or unknown,
anticipated, suspected or disclosed, which the
Releasing Parties may now have or hereafter
may have against the Released Parties, which
relate to or are based on the WARN Action
or claim under federal, state or local law or
regulation arising out of the termination of the
Class members’ employment by Defendants,
including, but not limited to: (a) all claims
asserted or that could have been asserted based
on the facts alleged in the WARN Action; (b)
the individual WARN Act claims; and (c) any
other claims for back pay or benefits based
on or arising out of any federal, state or local
statute, ordinance or regulation [except for
certain specific unreleased rights that are not
at issue in this action.]
RJN, Ex. 2 (Settlement Agreement) at Ex. A ¶ 11(a)
(emphasis added). 2 As part of the settlement, Plaintiff
and the Class received a portion of the WARN Act wages
and benefits they contended were due. Id.; Compl. ¶ 5.
Kohlberg represents it was not involved in the settlement
negotiations in any manner, and Plaintiff does not argue
2. Kohlberg asks the Court to take judicial notice of certified
court records from the ClearEdge bankruptcy proceedings. See
RJN, Dkt. No. 21. Plaintiff does not object to the request, and also
refers to the documents attached to Kohlberg’s RJN. See Opp’n.
The Court may take judicial notice of adjudicative facts in these
documents, as they are not reasonably in dispute and “are capable
of accurate and ready determination from sources whose accuracy
cannot be questioned.” Fed. R. Evid. 201(b)(2). Kohlberg’s RJN is
GRANTED.

18a
Appendix B
to the contrary.
The bankruptcy court preliminarily approved the
settlement on February 5, 2016, held a fairness hearing
on March 17, 2016 to consider approval of the settlement,
and finally approved the settlement on April 5, 2016. RJN,
Ex. 3 (Final Order) at 2. The bankruptcy court closed the
case on July 16, 2016. Id., Ex. 4 at 1.
C. The Instant Proceeding
On November 23, 2016, Plaintiff filed this suit against
Kohlberg to recover the balance of the Class’ WARN Act
wages and benefits. Compl. ¶ 6. Plaintiff contends Kohlberg
ordered the mass layoff of ClearEdge employees on or
about April 25, 2014, which resulted in Plaintiff and other
similarly situated employees being terminated. Id. ¶ 1;
see also id. ¶ 3 (“Defendant had funded ClearEdge for ten
years but decided to pull its funding and place ClearEdge
into immediate bankruptcy accompanied by the layoff
of most of ClearEdge’s employees”). Plaintiff further
contends Kohlberg did not give advance written notice of
termination as required by the WARN Act. Id. ¶ 4.
LEGAL STANDARD
Rule 8(a) requires that a complaint contain a “short
and plain statement of the claim showing that the pleader
is entitled to relief.” Fed. R. Civ. P. 8(a)(2). A complaint
must therefore provide a defendant with “fair notice” of
the claims against it and the grounds for relief. Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 555, 127 S. Ct. 1955, 167

19a
Appendix B
L. Ed. 2d 929 (2007) (internal quotations and citation
omitted).
A court may dismiss a complaint under Rule 12(b)(6)
when it does not contain enough facts to state a claim to
relief that is plausible on its face. Id. at 570. “A claim has
facial plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.”
Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct. 1937, 173 L.
Ed. 2d 868 (2009). “The plausibility standard is not akin
to a ‘probability requirement,’ but it asks for more than a
sheer possibility that a defendant has acted unlawfully.”
Id. (quoting Twombly, 550 U.S. at 557). “While a complaint
attacked by a Rule 12(b)(6) motion to dismiss does not
need detailed factual allegations, a plaintiff’s obligation
to provide the ‘grounds’ of his ‘entitle[ment] to relief’
requires more than labels and conclusions, and a formulaic
recitation of the elements of a cause of action will not do.
Factual allegations must be enough to raise a right to
relief above the speculative level.” Twombly, 550 U.S. at
555 (internal citations and parentheticals omitted).
In considering a motion to dismiss, a court must accept
all of the plaintiff’s allegations as true and construe them
in the light most favorable to the plaintiff. Id. at 550;
Erickson v. Pardus, 551 U.S. 89, 93-94, 127 S. Ct. 2197,
167 L. Ed. 2d 1081 (2007); Vasquez v. Los Angeles Cty.,
487 F.3d 1246, 1249 (9th Cir. 2007). In addition, courts
may consider documents attached to the complaint. Parks
Sch. of Bus., Inc. v. Symington, 51 F.3d 1480, 1484 (9th
Cir. 1995) (citation omitted).

20a
Appendix B
If a Rule 12(b)(6) motion is granted, the “court
should grant leave to amend even if no request to amend
the pleading was made, unless it determines that the
pleading could not possibly be cured by the allegation of
other facts.” Lopez v. Smith, 203 F.3d 1122, 1127 (9th Cir.
2000) (en banc) (internal quotations and citations omitted).
However, the Court may deny leave to amend for a number
of reasons, including “undue delay, bad faith or dilatory
motive on the part of the movant, repeated failure to cure
deficiencies by amendments previously allowed, undue
prejudice to the opposing party by virtue of allowance of
the amendment, [and] futility of amendment.” Eminence
Capital, LLC v. Aspeon, Inc., 316 F.3d 1048, 1052 (9th Cir.
2003) (citing Foman v. Davis, 371 U.S. 178, 182, 83 S. Ct.
227, 9 L. Ed. 2d 222 (1962)).
DISCUSSION
A. Arguments of the Parties
Res judicata bars relitigation of claims when there
is “(1) an identity of claims, (2) a final judgment on the
merits, and (3) identity or privity between the parties.”
Tritz v. U.S. Postal Serv., 721 F.3d 1133, 1141 (9th Cir.
2013); see also Allen v. McCurry, 449 U.S. 90, 94, 101 S.
Ct. 411, 66 L. Ed. 2d 308 (1980) (“[A] final judgment on
the merits of an action precludes the parties or the privies
from relitigating issues that were or could have been
raised in that action. . . . [res judicata] relieve[s] parties
of the cost and vexation of multiple lawsuits, conserve[s]
judicial resources, and, by preventing inconsistent
decisions, encourage[s] reliance on adjudication”). Where

21a
Appendix B
res judicata applies, a plaintiff is barred from asserting
any claims that could have been asserted in the prior
action, whether or not those claims actually were asserted.
McLain v. Apodaca, 793 F.2d 1031, 1033 (9th Cir. 1986).
Under one theory of the case, all parties agree that
the three elements of res judicata are met. See Mot.;
see also Opp’n (failing to contest first two elements, and
arguing vehemently that ClearEdge and Kohlberg were
a “single employer” and thus privies). Kohlberg argues
Plaintiff litigated his WARN Act claim in the ClearEdge
bankruptcy proceedings, took the position the ClearEdge
entities in that action were a “single employer,” settled the
claim on a class basis, and dismissed it with prejudice.
Because Plaintiff alleges Kohlberg was in privity with
ClearEdge when Plaintiff was terminated, Kohlberg
contends Plaintiff is impermissibly splitting his WARN
Act claim and that this action is barred by res judicata.
See Mot. (discussing Jarvis v. Matlin Patterson Global,
867 F. Supp. 2d 559, 562-63 (D. Del. 2012) (where plaintiff
who elected to proceed against bankrupt company through
bankruptcy proof of claims process failed to recovery
anything on claims, res judicata barred subsequent
WARN Act suit against majority shareholder of company:
“Plaintiff’s entire complaint is thus predicated upon an
extremely close relationship between [shareholder] and
[bankrupt company]. Principles of fairness are furthered
by this result. It would be unfair to allow [him] a second
bite of the apple by filing essentially the same suit against
[shareholder].”)). Plaintiff argues his WARN Act claim
against Kohlberg is not barred by res judicata because
he permissibly split his claim against Kohlberg from the

22a
Appendix B
matter settled in the bankruptcy proceedings. Opp’n at
5. He contends three exceptions to the rule against claim
splitting apply: “(1) the parties agreed to claim splitting,
(2) the [bankruptcy] court expressly reserved the plaintiff
class[]’ rights to pursue the claim, and (3) the class was
unable to seek a remedy in the first action due to structural
limitations in bankruptcy court.” Id. (citing Restatement
(Second) of Judgments (1982)). Kohlberg maintains none
of these exceptions apply precisely because it was no
longer in privity with ClearEdge when the bankruptcy
proceedings were settled; it further contends there were
no barriers to joining it as a defendant in the bankruptcy
action.
A lternatively, Plaintiff arg ues Kohlberg and
ClearEdge were no longer privies when he entered
into a settlement with ClearEdge in the bankruptcy
proceedings, and thus that res judicata does not apply.
B. Res Judicata
The party seeking to establish preclusion has the
burden of proof of all elements, including that no exception
applies. . . . Doubts are resolved against preclusion.” In re
Associated Vintage Grp., Inc., 283 B.R. 549, 562 (B.A.P.
9th Cir. 2002) (citations omitted) (because claim preclusion
is an affirmative defense, burden is appropriately placed
on party asserting defense); see also Shapley v. Nev. Bd.
of State Prison Comm’rs, 766 F.2d 404, 407 (9th Cir. 1985)
(party invoking res judicata bears the burden of showing it
applies). “The preclusive effect of a federal-court judgment
is determined by federal common law.” Taylor v. Sturgell,

23a
Appendix B
553 U.S. 880, 891, 128 S. Ct. 2161, 171 L. Ed. 2d 155 (2008).
The Court therefore evaluates whether Kohlberg has met
its burden of proving res judicata applies.
1.

Agreement to Split Claims

Parties can consent to split their claims and waive
the res judicata effect of a judgment. See Dodd v. Hood
River Cty., 59 F.3d 852, 862 (9th Cir. 1995) (“[C]onsent
or tacit agreement is clear justification for splitting a
claim. . . . Because a primary purpose of claim preclusion
is to protect defendants from being harassed by repetitive
actions based on the same claim, the rule need not be
enforced where [defendants] have implicitly consented to
the splitting of [plaintiff’s claim[.]”). Plaintiff argues the
release the parties to the bankruptcy action included in
the settlement constitutes an express agreement to split
the WARN Act claim against Kohlberg from the WARN
Act claim being settled in the bankruptcy proceedings.
Opp’n at 12-15. But there is no allegation—and no
indication—that Kohlberg agreed, tacitly or implicitly,
to claim splitting. On the contrary, Plaintiff admits that
“Kohlberg is not named as a party to the [settlement]
agreement nor was it a party in the settled suit, so it is a
non-party or third party to that agreement as the term
is generally understood.” Id. at 7.
Plaintiff nonetheless argues Kohlberg itself did
not need to acquiesce to the claim splitting because its
privy, ClearEdge, agreed to it on Kohlberg’s behalf:
“[I]f Kohlberg and ClearEdge are so closely related that
they are akin to one and the same defendant for purposes

24a
Appendix B
of claim preclusion, then following Kohlberg’s logic,
ClearEdge must have had the authority to bind Kohlberg
to a waiver of claim preclusion.” Opp’n at 14. 3 But Plaintiff
fails to cite any authority suggesting a defendant can
“consent” on behalf of a privy to split claims against the
privy who is not participating in the action. See id. at 1215.4 In Trujillo v. City of Ontario, 269 F. App’x 683, 684
(9th Cir. 2008) (Opp’n at 12), the defendant had requested
to split certain claims in an email sent to plaintiff before
trial in the first action, and plaintiff had agreed. The same
defendant successfully moved to dismiss a second action
filed by the same plaintiff on the ground his claim was
barred by res judicata; the parties in both actions were
3. In his Opposition, Plaintiff argued ClearEdge could bind
Kohlberg to the release as its virtual representative. Opp’n at
13-15. But the Supreme Court has squarely rejected the “virtual
representation” theory on which Plaintiff relies. See Bhatia, 545
F.3d at 758 (noting Supreme Court rejected “virtual representation”
exception to res judicata principles in Taylor, 553 U.S. at 895-96);
Alphaville Design, Inc. v. Knoll, Inc., 627 F. Supp. 2d 1121, 1136 (N.D.
Cal. 2009) (noting same). During oral argument, Plaintiff recast his
argument as one of “control” rather than “virtual representation.”
4. Plaintiff argues Kohlberg fails to identify any support for
its position that the “affected party” must consent to the release,
as opposed to the defendant. See Opp’n at 12-13. But a release is
a contract; under California law (which governs the settlement
ClearEdge and Plaintiff entered into), a contract cannot be formed
without offer, acceptance, and consideration. See Hecimovich v.
Encinal Sch. Parent Teacher Org., 203 Cal. App. 4th 450, 475, 137
Cal. Rptr. 3d 455 (2012). Plaintiff does not allege or argue that he
entered into any type of agreement with Kohlberg; on the contrary,
he argues Kohlberg “was utterly absent from the pleadings, litigation
and settlement” of the earlier WARN Act litigation. Opp’n at 8.

25a
Appendix B
identical. The Ninth Circuit reversed, finding the parties
in the first action had agreed to split the claims and there
was no evidence that the facts and issues in the second
action were mentioned in the first, let alone related, as they
pertained to retaliation claims based on different events.
In Perez v. Gordon & Wong Law Group, P.C., 2012 U.S.
Dist. LEXIS 41080, 2012 WL 1029425 (N.D. Cal. March
26, 2012) (Opp’n at 12), Perez alleged Gordon & Wong, a
firm that first represented plaintiff Discover Bank in an
earlier debt-collection action, had violated federal and state
fair debt collection practices during its efforts to collect
money from him in an earlier state-court action. During
the state-court action, Perez had filed a cross-complaint
alleging Discover Bank and several Roe Defendants had
violated California’s Fair Debt Collection Practices Act
(“CDCPA”); new counsel replaced Gordon & Wong. Perez
and Discover Bank settled the debt-collection/CDCPA
action, Perez voluntarily dismissed his CDPA claim with
prejudice, and the parties specifically excluded Gordon &
Wong in their release of claims. When Perez sued Gordon
& Wong in the second action, Gordon & Wong argued
Perez’s claims were barred by res judicata. The court
rejected that argument, finding the release executed by
Perez and Discover Bank specifically excluded Gordon
& Wong from the settlement, and that Gordon & Wong
“was clearly a party to the prior state action.” 2012 U.S.
Dist. LEXIS 41080, [WL] at *2-5. Unlike the defendants
in Trujillo and Perez, Kohlberg was not a party to the
bankruptcy action.
But even if ClearEdge and Kohlberg were in privity at
the time of the ClearEdge layoffs, Plaintiff acknowledges

26a
Appendix B
Kohlberg no longer controlled ClearEdge after the
bankruptcy proceedings were filed. See id. at 8 (“Whatever
privity existed when Kohlberg owned and directed
ClearEdge as a going concern did not necessarily extend
to the adversary proceeding between the Plaintiff class
and ClearEdge where Kohlberg was utterly absent from
the pleadings, litigation and settlement.”) By Plaintiff’s
own admission, Kohlberg also was not involved in the
bankruptcy proceedings in any manner—it was a “third
party . . . as the term is generally understood.” Opp’n at 7.
Thus, under Plaintiff’s own theory of the case, Kohlberg
did not control ClearEdge when ClearEdge entered into
the agreement purporting to exclude Kohlberg from the
scope of the release and Kohlberg did not consent to split
the WARN Act claim Plaintiff now asserts. Plaintiff offers
no legal support for his argument that a non-party can
be deemed to have consented to opt out of res judicata by
parties to a settlement agreement where the non-party
was not a privy at the time of the settlement. There is
simply no indication, whether based in fact or law, that
Kohlberg agreed to claim splitting.
2.

Express Reservation of Rights by Court

Plaintiff argues the bankruptcy court “expressly
reserve[d]” his right to maintain this action when it
approved the class settlement of the WARN claims against
ClearEdge, including the exclusion of Kohlberg from
the scope of the release. Opp’n at 6-12; RJN, Ex. 2. “A
determination by the court that its judgment is ‘without
prejudice’ (or words to that effect) to a second action on
the omitted part of the claim, expressed in the judgment

27a
Appendix B
itself, or in the findings of fact, conclusions of law,
opinion, or similar record, unless reversed or set aside,
should ordinarily be given effect in the second action.”
Restatement (Second) § 26(1)(b) cmt. The bankruptcy
court entered an order approving the parties’ settlement
agreement and class notice, both of which included the
release of claims at issue. See RJN, Ex. 3 (Final Order);
Settlement Agreement; RJN, Ex. 2 at Ex. D (Notice). The
parties’ motion for preliminary approval of the settlement
does not address the scope of the release, or mention that
Plaintiff may seek to pursue a WARN Act claim against
Kohlberg. See RJN, Ex. 2. The bankruptcy court found
the settlement was fair, reasonable, and adequate as to
the class members; it did not address claim-splitting or
Plaintiff’s reservation of right to pursue a WARN Act
claim against Kohlberg in its Final Order. See Final
Order.5 Indeed, there is no indication the bankruptcy court
5. Plaintiff identifies no legal support for his contention a court
can “expressly reserve” claims against a non-party for purposes of
avoiding res judicata at a later date, especially when the non-party
is alleged not to have been a privy at the time of settlement. See
Opp’n at 9-10 (citing Eclaire Advisor As Tr. to Daewoo Int’l (Am.)
Corp. Creditor Tr. v. Daewoo Eng’g & Constr. Co., 375 F. Supp. 2d
257, 266 (S.D.N.Y. 2005) (assuming privity existed, and finding res
judicata did not apply where release contained express carve out
and counsel at confirmation hearing reaffirmed scope and impact of
release on record); Robinson v. Toyota Motor Credit Corp., 201 Ill.
2d 403, 775 N.E.2d 951, 958, 266 Ill. Dec. 879 (Ill. 2002) (plaintiffs
seeking to avoid res judicata based on carve out were class members
in another action pending against the same defendants named in the
second action); Jou v. Adalian, 2016 U.S. Dist. LEXIS 117914, 2016
WL 4582042 (N.D. Cal. Sept. 1, 2016) (“Jou II”) (release at issue
was agreed to by the same parties involved in Jou I, Civ. No. 09-226
JMS-KJM, 2010 U.S. Dist. LEXIS 136287 (D. Haw.) (Judgment

28a
Appendix B
specifically considered the matter or expressly reserved
Plaintiff’s right to pursue a second WARN claim against
Kohlberg. Cf. Dodd, 59 F.3d at 862 (finding “express
reservation” where court repeatedly acknowledged that
certain claims were not before it and instead were pending
in federal district court); In re Associated Vintage Grp.,
Inc., 283 B.R. at 564-65 (“If a court declines to hear an
aspect of a cause of action in circumstances in which it is
contemplated that the plaintiff will be able to litigate that
issue later, an exception to splitting is appropriate. This is
often manifested by the court’s use of words to the effect
of ‘without prejudice’ when referring to a second action on
the omitted part of the claim.”). The bankruptcy court’s
Final Order, which does not mention either Kohlberg or
the release, cannot be fairly read to “expressly reserve”
a WARN Act claim against Kohlberg.6

entered Dec. 23, 2010)); Perez, 2012 U.S. Dist. LEXIS 41080, 2012 WL
1029425 at *2-5 (defendants were “clearly” parties to first action)).
The parties at the hearing confirmed they were not aware of any
case law directly on point.

6. Plaintiff argues “any doubts as to whether the Bankruptcy
Court intended the claim against Kohlberg to be released are
resolved by the Final Approval Order which states that the
settlement is fair because the settlement amount ‘is well within the
range of reasonableness given the uncertainty of the Plaintiff’s ability
to establish liability and to recover against bankrupt debtors.’ . . .
If the court had intended to extinguish claims against Kohlberg, it
would not have evaluated the fairness of the settlement in light of
only the ability to collect from the bankrupt debtors as Kohlberg
was not and is not a bankrupt debtor.” Opp’n at 9. Plaintiff attempts
to read too much in the bankruptcy court’s statement.

29a
Appendix B
3.

Lack of Sufficient Facts & Str uctural
Limitations of Bankruptcy Proceedings

Plaintiff next argues that it was not until late in
the bankruptcy proceedings that he had sufficient facts
to understand Kohlberg was a single employer with
ClearEdge within the meaning of the WARN Act. Opp’n
at 19-23. Once the bankruptcy court confirmed the
bankruptcy plan, Plaintiff argues that court’s jurisdiction
was limited to claims having a “close nexus” to the
bankruptcy process. Plaintiff contends the bankruptcy
court’s jurisdiction at that time would not extend to “a
‘major suit’ brought by the trust against non-parties to
the bankruptcy or to any closely related proceeding.” Id.
at 21-22 (quoting In re Resorts Int’l, Inc., 372 F.3d 154, 168
(3d Cir. 2004)). He argues that it “made little sense to seek
to amend the complaint to add a claim against Kohlberg
that the Court would soon lack jurisdiction to hear.” Id.
As an initial matter, there is no indication that
Plaintiff could not have presented Kohlberg’s identity
as single employer to the bankruptcy court. Plaintiff
admits in his Opposition that ClearEdge’s July 22, 2015
interrogatory responses and responses to requests for
production “further cement[ed his] view that a claim
against Kohlberg would be viable.” Opp’n at 22. The
confirmation hearing did not take place until December
23, 2015, and the bankruptcy court did not approve the
reorganization plan until March 2, 2016. Id. at 23 & n.12.
Thus, even under Plaintiff’s view of the bankruptcy court’s

30a
Appendix B
jurisdiction7, he had well over six months between his
belief about Kohlberg’s role became “further cemented”
and the time when the bankruptcy court’s jurisdiction
became limited to claims having a “close nexus” with the
bankruptcy process. He argues that the delays in holding
the confirmation hearing were “unforeseeable” and blames
ClearEdge for “the filing of multiple amended plans.” Id. at
23. But he fails to explain why he could not have amended
his complaint during this period, or sought an extension
of time to do so. Plaintiff argues that he “specifically
negotiated the exclusion of the release against Kohlberg
based on his view . . . that a claim against Kohlberg was
viable, but could no longer be brought in the bankruptcy
case.” Id. Notably, Plaintiff and his attorneys fail to offer
any evidentiary support for that representation; the
Complaint also alleges no facts supporting this position.
Plaintiff has not shown jurisdictional barriers existed
that prevented him from amending the complaint in
bankruptcy court to add Kohlberg as a single employer.
Even if Plaintiff had set forth such evidence, “simply
identifying newly developed or different evidence is
not enough to overcome application of the doctrine of
res judicata, or claim preclusions.” PCL Const. Servs.,
Inc. v. U.S., 84 Fed. Cl. 408, 422 (Fed. Cir. 2008) (citing
Restatement (Second) of Judgments § 25(1) (claim
preclusion “applies to extinguish a claim by the plaintiff
against the defendant even though the plaintiff is prepared
in the second action (1) To present evidence or grounds or
7. Kohlberg argues the scope of the bankruptcy court’s
jurisdiction is not as narrow as Plaintiff contends it is. See Reply
at 10-11.

31a
Appendix B
theories of the case not presented in the first action[.]”));
see also Restatement (Second) of Judgments § 26, cmt. j
(res judicata does not bar later action where plaintiff was
precluded from asserting a claim based on defendant’s
fraud in the earlier action, but “[t]he result is different . . .
where the failure of the plaintiff to include the entire claim
in the original action was due to a mistake, not caused by
the defendant’s fraud or innocent misrepresentation.”).
Neither the Supreme Court 8 nor the Restatement (Second)
of Judgments recognizes an exception to the prohibition
against claims splitting based on new facts absent fraud
by the defendant, and the Ninth Circuit follows the
Restatement. See Western Sys., Inc. v. Ulloa, 958 F.2d
864, 871-72 (9th Cir. 1992) (“Ignorance of a party does not,
however, avoid the bar of res judicata unless the ignorance
was caused by the misrepresentation or concealment of
the opposing party. Even if ignorance were sufficient to
avoid the bar, that fact would not aid” plaintiffs as evidence
showed they were on notice of their claims in the prior
litigation) (citing Restatement (Second) of Judgments § 26,
cmt. j); Mpoyo v. Liton Electro-Optical Sys., 430 F.3d
985, 988-89 (9th Cir. 2005) (affirming res judicata barred
8. The Supreme Court has recognized six “established
categories” where nonparties may be subject to res judicata: (1)
a subsequent litigant agreed to be bound by the prior litigation;
(2) a preexisting legal relationship between prior and subsequent
litigants; (3) “certain limited circumstances” where the subsequent
litigant was “adequately represented” in the prior litigation, such as a
“properly conducted class action” or a suit brought by a guardian; (4)
a subsequent litigant who “assumed control” over the prior litigation;
(5) a subsequent litigant who is merely a proxy for an earlier litigant;
and (6) special statutory schemes, such as in bankruptcy and probate
proceedings. See Taylor, 553 U.S. at 893-95.

32a
Appendix B
plaintiff’s claim where plaintiff claimed he was unaware
of certain claims when he filed his original complaint but
there was no bar to presenting the claims in the original
suit before summary judgment was granted; district
court’s denial of leave to amend complaint to assert those
claims in original action based on plaintiff’s dilatoriness
did not prevent application of res judicata in later action).
Quoting Doe v. Allied-Signal, Inc., 985 F.2d 908,
914 (7th Cir. 1993), Plaintiff argues that “if the plaintiff
is unaware of facts when filing a complaint, res judicata
will not bar subsequent litigation.” Opp’n at 20. That
proposition, however, has not been adopted by subsequent
courts in this Circuit, which cite Allied-Signal for the
different proposition that “plaintiffs need not amend
filings to include issues that arise after the original suit
is lodged.” Estrada v. Sayre, 2013 U.S. Dist. LEXIS
106770, 2013 WL 3957752, at *3 (N.D. Cal. July 30, 2013)
(“The majority rule for claims for damages is that claim
preclusion extends to claims in existence at the time of
the filing of the original complaint in the first lawsuit and
any additional claims actually asserted by supplemental
pleading” (citing cases) (emphasis added)); In re Andrews,
668 Fed. Appx. 757, 2016 U.S. App. LEXIS 16220, 2016
WL 4547643, at *1 (9th Cir. Sept. 1, 2016) (rejecting
“newly discovered facts” exception to res judicata because
“with diligence,” debtor in bankruptcy court would have
discovered fraud before filing initial suit (citing Allied Fire
Protection v. Diede Constr., Inc., 127 Cal. App. 4th 150, 25
Cal. Rptr. 3d 195, 200-01 (Cal. 2005) (applying California
law and citing Allied-Signal))).

33a
Appendix B
As the allegations of the Complaint make plain,
Plaintiff contends Kohlberg and ClearEdge were a single
employer before the bankruptcy proceedings commenced.
Plaintiff does not argue he acquired a new right against
Kohlberg while the bankruptcy proceedings were pending
or that he did not discover facts suggesting Kohlberg was a
single employer before filing that action; rather, he alleges
he became “more cemented” in his view that Kohlberg
was a single employer with ClearEdge. He also does not
allege he was prevented from discovering Kohlberg’s role
through concealment, misrepresentation or fraud. As
such, he cannot avoid the res judicata bar on his WARN
Act claim against Kohlberg.
C.

Lack of Privity

A lternatively, Plaintiff argues ClearEdge and
Kohlberg were “no longer privies” during the WARN
litigation and therefore that res judicata does not bar his
claims against Kohlberg in this action. See Opp’n at 17-18
(“Kohlberg had a total stranglehold over ClearEdge when
it terminated its employees and filed for bankruptcy” and
accordingly was a “single employer” for WARN purposes
but that relationship ended when ClearEdge became a
debtor in possession in bankruptcy proceedings). Because
the bankruptcy court had to approve any settlement of the
WARN Act claim, and because ClearEdge had a fiduciary
duty to act in the best interest of the bankruptcy, Kohlberg
could no longer control ClearEdge as it allegedly had done
prior to the bankruptcy. See id. Kohlberg agrees with
this position.

34a
Appendix B
As in Jarvis, “Plaintiff’s entire complaint is predicated
upon an extremely close relationship between” Kohlberg
and ClearEdge at the time of the terminations alleged to
violate the WARN Act. 867 F. Supp. 2d at 563. Indeed,
Plaintiff apparently evaluated whether to amend the
complaint filed in the bankruptcy action to name Kohlberg
as a single employer defendant but decided it was too
late to do so. See supra. Res judicata arises because
of Kohlberg’s alleged privity with ClearEdge at the
time of the WARN Act violation: Plaintiff could have
brought that claim against Kohlberg in the bankruptcy
proceedings but did not do so. See McClain, 793 F.2d at
1033; see also Robinson v. Volkswagenwerk AG, 56 F.3d
1268, 1275 (10th Cir. 1995) (affirming dismissal of claims
against entity alleged to control previously sued defendant
based on res judicata: “If true, however, this ‘near alter
ego’ relationship would be sufficient to establish ‘privity’
between the two corporations such that Volkswagen AG
is entitled to assert the previous judgment as a bar to
the claim now asserted.”) That the relationship changed
thereafter does not preclude the application of res judicata
to bar the WARN Act claim.
Plaintiff and the class members who settled their
WARN Act claim against ClearEdge only received partial
payment for their claims. See Settlement Agreement;
see also Final Order. “Plaintiff[] may now regret this
deal[, but that] risk . . . should have been known, and
undoubtedly was known, to Plaintiffs when they” entered
into the settlement. Jarvis, 867 F. Supp. 2d at 562. The
undersigned finds it “would be unfair to allow them a
second bite of the apple by filing essentially the same suit

35a
Appendix B
against” (id. at 563) Kohlberg, and that allowing Plaintiff
to proceed would not encourage parties to conserve
judicial resources (Allen, 449 U.S. at 94).
CONCLUSION
Kohlberg has met its burden of proving res judicata
bars Plaintiff’s WARN Act claim against it, and none of
the exceptions to claim-splitting apply here.
For these reasons, the Court GRANTS Kohlberg’s
Motion to Dismiss the action on res judicata grounds.
Because Plaintiff does not argue he was dissuaded from
naming Kohlberg as a defendant in the bankruptcy
proceedings through fraud, misrepresentation, or
concealment (Restatement (Second) of Judgments § 26,
cmt. j; Western Sys, 958 F.2d at 871-72), the Court finds
allowing leave to amend in this case would be futile.
Accordingly, it dismisses the action WITH PREJUDICE.
IT IS SO ORDERED.
Dated: April 11, 2017
/s/ Maria-Elena James
MARIA-ELENA JAMES
United States Magistrate Judge

36a
Appendix OF
C REAHEARING
APPENDIX C — DENIAL
OF THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT, FILED JUNE 17, 2019
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-15966
D.C. No. 3:16-cv-06775-MEJ
Northern District of California, San Francisco
PETER WOJCIECHOWSKI, ON HIS OWN BEHALF
AND ON BEHALF OF ALL OTHER PERSONS
SIMILARLY SITUATED,
Plaintiff-Appellant,
v.
KOHLBERG VENTURES, LLC,
Defendant-Appellee.
ORDER
Before: GOULD and PAEZ, Circuit Judges, and
JACK,* District Judge.
The full court has been advised of Defendant-Appellee
Kohlberg Venture’s Petition for Rehearing En Banc and
no judge of the court has requested a vote on the Petition
for Rehearing En Banc. Fed. R. App. P. 35. DefendantAppellee’s Petition for Rehearing En Banc is DENIED.
* The Honorable Janis Graham Jack, United States District
Judge for the Southern District of Texas, sitting by designation.

